Department of Homeland Security
   Office of Inspector General

                 Process Used by the Department of
                    Homeland Security to Monitor
                 Reporting by Recipients of American
                  Recovery and Reinvestment Act of
                             2009 Funds




      American Recovery and Reinvestment Act of 2009 





OIG-10-08                                                October 2009
                                                             Office a/II/spector Gel/eral

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528



                                                             Homela.nd
                                                             Se.cllrity
                                                             Se.ciirìty

                                     OCT 3 a 2009

                                      Preface

The Department of Homeland Security (DRS) Office of Inspector General (OlG) was
established by the Homeland Security Act -o j2002 (Public Law 107-296) by amendment to
the inspector General Act oj 1978. This is one of a series of audits, inspection, and special
reports prepared as part of our oversight responsibilities for pre>grams; grants and projects
administered by th~ department under the American Recovery and Reinvestment Act of
2009 (Recovery Act).

This report. discusses th(i processes used r,y the department to asseSs the completeness and
accuracy of reports submitted -to it by recipients of Recovery Act funds administered by the
department and to follow upon reporting errors.

The recommendation herein has been developed to the best knowledge available to our
office, and has been discussed in draft wit,h those responsible for implem~ntation. We trust
this report will resultin more-effective, efficient, .lmdeconomical operations. We express
our appreciation to all of those who contributed to the 'preparation of this report.


                                                                            •
                                         /~~,~
                                          Richard L. Skinner
                                          Inspector General
Table of Contents/Abbreviations 


Executive Summary ............................................................................................................ 1 


Background ......................................................................................................................... 2 


Results of Review ............................................................................................................... 4


    DHS Headquarters ......................................................................................................... 4 

    DHS Components .......................................................................................................... 4 

    Recommendation ........................................................................................................... 6 

    Management Comments and OIG Analysis................................................................... 6 


Appendices

   Appendix A: Objective, Scope, and Methodology ........................................................ 7 

   Appendix B: Management Comments to the Draft Report............................................ 8 

   Appendix C: Estimated Number of Award Recipients and Number of Recipients 

               Reporting by Component for Quarterly Reporting Period
               Ending September 30, 2009 ................................................................... 11 

   Appendix D: Detailed Reporting Requirements.......................................................... 12 

   Appendix E: Comparison of Attributes in the Board’s Data Quality Review Guide 

               with Component Monitoring Processes ................................................ 15 

   Appendix F: Major Contributors to This Report ........................................................ 16 

   Appendix G: Report Distribution................................................................................. 17 




Abbreviations

     CBP                 Customs and Border Protection 

     DHS                 Department of Homeland Security 

     FEMA                Federal Emergency Management Agency 

     GSA                 General Services Administration 

     ICE                 Immigration and Customs Enforcement 

     OIG                 Office of Inspector General 

     OMB                 Office of Management and Budget 

     USM                 Office of Under Secretary for Management 

     TSA                 Transportation Security Administration                                             

     USCG                United States Coast Guard 

OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                      The American Recovery and Reinvestment Act of 2009 (Recovery
                      Act) provided $787 billion to the federal government to stimulate
                      the U.S. economy. Of that amount, the Department of Homeland
                      Security received $2.75 billion for various projects run by the Office
                      of the Under Secretary for Management, U.S. Customs and Border
                      Protection, U.S. Immigration and Customs Enforcement,
                      Transportation Security Administration, the U.S. Coast Guard, and
                      the Federal Emergency Management Agency.

                      At the request of the Recovery Accountability and Transparency
                      Board, we conducted a review to determine whether the department
                      has established a process to perform limited data quality reviews of
                      reports submitted by recipients of Recovery Act funds administered
                      by the department to identify material omissions and/or significant
                      reporting errors, and to notify the recipients of the need to make
                      appropriate and timely changes.

                      The department process for verifying the completeness and accuracy
                      of data reported by recipients is evolving. The department issued
                      general guidance on reviewing contractor reports on September 15,
                      2009. Also, four of five components developed approaches for
                      substantiating the accuracy of recipient reporting. Later, the
                      department headquarters developed a method to identify non-
                      registrants and began providing that information to its components.
                      However, the department has not yet issued detailed procedures for
                      performing limited data quality reviews of recipient reporting to
                      identify material omissions and significant reporting errors.

                      To improve the process, we are recommending that the department
                      issue formal policy and procedures to guide the agency. In an
                      October 28, 2009 response to the draft report (Appendix B), the
                      department generally concurred with the finding and
                      recommendation. Based on the response, we consider the
                      recommendation resolved but not implemented. The
                      recommendation will remain open until we receive a copy of the
                      department-wide policy and procedures.

 Process Used by the Department of Homeland Security to Monitor Reporting by Recipients of 

                   American Recovery and Reinvestment Act of 2009 Funds 


                                              1

Background

                      The American Recovery and Reinvestment Act of 2009 (Recovery
                      Act or ARRA) made available to federal agencies approximately
                      $787 billion for preserving and stimulating economic growth in the
                      United States. Components within the the Department of Homeland
                      Security (DHS) received $2.75 billion for the following activities:

                                               AMOUNT
                       COMPONENT              (in millions)            ACTIVITY
                       Transportation           $1,000        Procurement and installation of
                       Security                               baggage and passenger
                       Administration                         explosive detection systems at
                       (TSA)                                  selected airports

                       U.S. Customs and            $680       Construction/renovation of
                       Border Protection                      land ports of entry, purchase of
                       (CPB)                                  non-intrusive inspection
                                                              systems, development and
                                                              deployment of the Secure
                                                              Border Initiative Program, and
                                                              the upgrade of tactical
                                                              communications

                       Federal Emergency           $610       Grants for Emergency Food
                       Management                             and Shelter National Board
                       Agency (FEMA)                          Program, Public
                                                              Transportation and Railroad
                                                              Security Assistance, Port
                                                              Security, and Assistance to
                                                              Firefighters for the
                                                              construction/renovation of
                                                              non-federal fire stations

                       U.S. Coast Guard            $240        Alteration of bridges,
                       (USCG)                                 improvements to shore
                                                              facilities, and repairs to vessels

                       Office of the Under         $200       Continued development of the
                       Secretary for                          DEPARTMENT consolidated
                       Management                             headquarters
                       (USM)

                       U.S. Immigration             $20       Upgrade of its tactical
                       and Customs                            communications system
                       Enforcement (ICE)

 Process Used by the Department of Homeland Security to Monitor Reporting by Recipients of 

                   American Recovery and Reinvestment Act of 2009 Funds 


                                              2

                          To complete these activities, the department has and will be
                          awarding contracts and grants to government, non-profit, and for-
                          profit organizations (hereinafter referred to as recipients). See
                          Appendix C for status of awards and number of award recipients
                          registered in www.FederalReporting.gov for the quarter ending
                          September 30, 2009.

                          Section 1512 of the Recovery Act requires any recipient of
                          Recovery Act funds directly from a federal agency to submit a
                          report not later than 10 days after the end of each calendar quarter.
                          The reports include information on the status of recovery funds; lists
                          of projects undertaken; and project information, such as jobs
                          created. Recipients must register and submit data through
                          www.FederalReporting.gov, the online Web portal that will collect
                          all Recovery Act recipient reports. The Office of Management and
                          Budget (OMB) subsequently issued guidance1 to provide federal
                          agencies and recipients of funding with information necessary to
                          effectively implement the Section 1512 reporting requirements. See
                          Appendix D for detailed information on reporting requirements.

                          Section 1521 of the Recovery Act created the Recovery
                          Accountability and Transparency Board 2 (the Board) to “coordinate
                          and conduct oversight of covered [Recovery Act] funds to prevent
                          fraud, waste, and abuse.” As part of its oversight activities, the
                          Board developed a guide 3 for use by the Inspectors General in
                          reviewing “whether Federal agencies have established a process to
                          perform limited data quality reviews intended to identify material
                          omissions and/or significant reporting errors, and notify the
                          recipients of the need to make appropriate and timely changes.”

                          In a September 15, 2009 message to the Inspector General
                          community, the Board advised Inspectors General to use the guide
                          to conduct agency reviews and to submit final reports on the results
                          of the reviews to the Board by October 30, 2009. The Board will
                          compile the results of these reports and issue a consolidated report
                          that will identify any systemic issues and, if appropriate, make
                          recommendations for improvements across the federal government.

1
  OMB Memorandum M-09-21 dated June 22, 2009, Implementing Guidance for the Reports on Use of Funds Pursuant 

to the American Recovery and Reinvestment Act of 2009. OMB M-09-21 is not applicable to federal contracts. 

2
  The Board consists of a Chairman and 12 Inspectors General from the Departments of 

Agriculture, Commerce, Defense, Education, Energy, Health and Human Services, Homeland Security, 

Interior, Justice, Transportation, Treasury, and the Treasury Inspector General for Tax Administration. 

3
  The guide is entitled Data Quality Review Guide for the Inspector General Community. 


    Process Used by the Department of Homeland Security to Monitor Reporting by Recipients of 

                      American Recovery and Reinvestment Act of 2009 Funds 


                                                      3

     Results of Review
                     The department process for verifying the completeness and accuracy
                     of data reported by recipients is evolving. The department issued
                     general guidance on reviewing contractor reports on September 15,
                     2009. Also, four of five components developed approaches for
                     substantiating the accuracy of recipient reporting. Later, the
                     department headquarters developed a method to identify non-
                     registrants and began providing that information to its components.
                     However, the department has not yet issued detailed procedures for
                     performing limited data quality reviews of recipient reporting to
                     identify material omissions and significant reporting errors.

             DHS Headquarters
                     The department intended to contract for an integrated project
                     management approach to ensure the accuracy of the recipient-
                     reported data. The department officials, however, said that the
                     planned approach was not implemented because it was too costly.
                     After the close of the September 30, 2009 reporting period, the
                     department:

                        •		 Developed a means to compare the department data with data
                            in Federal Reporting.gov to identify non-registrants and
                            provided the information on non-registrants to the appropriate
                            component for follow up.

                        •		 Started to download recipient reported data, converting it to an
                            excel spreadsheet, and supplying the data to components for
                            use in testing and verification, and

                        •		 Reached out to its components to identify best practices for
                            verifying reported data.

             DHS Components
                     Lacking specific guidance from the department headquarters on how
                     to perform data quality reviews, FEMA, CBP, USCG, and ICE,
                     developed their own approaches to monitor recipient reporting.
                     TSA, however, has yet to develop a methodology. A relevant
                     discussion on each department component receiving Recovery Act
                     funds follows:

Process Used by the Department of Homeland Security to Monitor Reporting by Recipients of
                  American Recovery and Reinvestment Act of 2009 Funds

                                             4

                     •		 FEMA completed preliminary recipient reporting and data
                         quality review procedures to identify and mitigate material
                         omissions and significant errors. FEMA also developed risk
                         categories and criteria for the evaluation of recipient data.
                         FEMA’s monitoring strategy consists of a preferred and backup
                         plan to ensure recipients comply with the OMB reporting
                         requirements. FEMA will conduct random samples of recipient
                         records for its ARRA grant programs.

                     •		 USCG developed an ongoing weekly review process beginning
                         on day 11 through 29 following the end of each quarter to ensure
                         recipients report data on a timely basis. The review process will
                         identify material omissions and significant errors. Additionally,
                         USCG incorporated periodic meetings with USCG top
                         executives and contracting officials to identify critical issues and
                         the status of all Recovery Act projects. Policies and procedures
                         were also developed to ensure recipients comply with contract
                         terms and to identify potential risk factors that may exist.

                     •		 ICE developed a preliminary four-step review plan. The four
                         levels of review and the weekly reporting process occurs during
                         day 11 through 21 following the end of each quarter. This
                         review process enables ICE to perform quality checks of the data
                         and to review recipient data for accuracy and reasonableness.

                     •		 CBP developed a detailed plan to review the data quality of
                         recipient reporting. CBP established standard operating
                         procedures to ensure recipient reporting is in compliance with
                         OMB directives, an audit program to identify material omissions
                         and significant reporting errors, and a risk mitigation template
                         which identifies potential risks and mitigation efforts.

                     •		 TSA did not develop policies or standard operating procedures
                         regarding recipient reporting.

                     •		 USM transferred $199 million of the $200 million appropriated
                         for the continued consolidation of the department headquarters
                         to the U.S. General Services Administration (GSA) through a
                         reimbursable work agreement. The department officials advised
                         us that GSA is responsible for reporting on the status of funds
                         and for verifying recipient reports, and that a memorandum of
                         agreement specifying these and other terms is being developed.

Process Used by the Department of Homeland Security to Monitor Reporting by Recipients of 

                  American Recovery and Reinvestment Act of 2009 Funds 


                                             5

                     See Appendix E for a comparison of attributes measured in the
                     Board’s Data Quality Review Guide with component monitoring
                     processes. In general, FEMA, USCG, ICE, and CBP developed
                     procedures consistent with the Board’s Data Quality Review Guide.

                     Recommendation

                     We recommend that the Senior Accountable Official for the
                     department issue department-wide policy and procedures for
                     performing data quality reviews of recipient reporting to identify
                     material omissions and/or significant reporting errors. The policy
                     and procedures should be based, in part, on an evaluation of
                     component-developed processes, component characteristics, and
                     best practices of other federal agencies.

                     Management Comments and OIG Analysis

                     In an October 28, 2009 response to the draft report (Appendix B),
                     the department generally concurred with the finding and
                     recommendation. Based on the response, we consider the
                     recommendation resolved but not implemented. The
                     recommendation will remain open until we receive a copy of the
                     department-wide policy and procedures.

                     The reply also presented information on actions by the department
                     since completion of our field work and comments on the draft
                     report. We made changes to the draft report as appropriate on the
                     basis of the comments.




Process Used by the Department of Homeland Security to Monitor Reporting by Recipients of 

                  American Recovery and Reinvestment Act of 2009 Funds 


                                             6
Appendix A
Objective, Scope, and Methodology

                      The objective of this review is to determine whether the department
                      and its components established a process to perform limited data
                      quality reviews intended to identify material omissions and
                      significant reporting errors, and notify the recipients of the need to
                      make appropriate and timely changes.

                      We reviewed the department’s process for monitoring recipient
                      reporting of recovery funds as of September 30, 2009. Our
                      fieldwork was conducted at FEMA, TSA, USCG, ICE, CBP, and the
                      department headquarters in September and October 2009. To
                      accomplish our objective, we examined applicable policies,
                      procedures, and internal directives used by the department to
                      administer and monitor recipient reporting. We also interviewed the
                      department headquarters and component officials responsible for
                      managing and overseeing recipient reporting. We did not, however,
                      verify the accuracy of data provided by the department or test the
                      effectiveness of processes designed by the department to measure
                      the quality of recipient reporting because it was not required by the
                      Board.

                      We conducted this review according to the Quality Standards for
                      Inspections issued by the President’s Council on Integrity and
                      Efficiency.




 Process Used by the Department of Homeland Security to Monitor Reporting by Recipients of 

                   American Recovery and Reinvestment Act of 2009 Funds 


                                              7
Appendix B
Management Comments to the Draft Report


                                                                                                                U;8. Dcpiirtment.ofBomclaDd Sc,Dr!ty
                                                                                                                WlIhligton, DC 205ZS



                                                                OCT 21,2009
                                    Homeland
                                                                                                                Security

                 MEMORANDUM FOR:	 Richard L.Skil'er
                                                  ll'spectorGeneral
                                                  De..p.artm. entof.Home.~land. s.&C. u rity . .



                 FROM:	                           Brian de Vallance .
                                                  DHS Senior Account b . Offlal
                                                  AmerIcan Reco\leryandRè-lniiestment Act

                                                  Department of Homeland Security

                  SUBCT:                           DRAFT REPORT: Process Used by the Departentof Homeland Security to
                  Monitor Reportng by Recipients of American Recovery and Reinvestment Act of 2009 Funds

                 The Executive Summary of .tle subject report st!1testh!1t, 'We                 found tha.t the department       has an   evolving
                  proess      for   examining recipient reportng. To                   recommended that DHS Issue formal
                                                                            Improve the process, we
                  policy and proci;dures to guide the agency." The Department generally COnc;\lrs with that statement, and
                  notes that not only istheOepartentalove.rsight of the Recipient Repo.rtng proess of an evolYng nature, the
                  Guldanceanddlrectlon frQm OMS, OFFill!. OFPP and .the .ReCQvery Implementation Offce Is also     evolving.
                  Guidance is distrbutec;. through a variety for a, inch,iding the OMS Max website, Town HaU Meetlng$ and twice
                 weekly Conference calls ("ter alia. D,"S, like cither agel'cles, strives tQ keep pace with this ever..hanglng
                  landscape.
                  In the sectonentltled, "Results of RevieW' the followil'g statementls m!1de, "Howevi¡r, DHS has nt;tyet
                  i$sued proceduri¡$ for perfClrmlng limited data qualityrevlliWll of recipient rlipOrtng to Identify material
                  cimli;sions !1niiorsignlfiQant repClrting errørs, !1nd..to notify the recipients; øf the l'-llid to miake approprtateand
                  timely     changes. ·

                  The Oep!1rtment feølsthlit this statement is overly broac;. For example, the Offce of the Chief Procurement
                  Oficer (OCPO) ha$ ii;sued Oep!1rtlint-wlde prø.cedures fClr dlita quality reviews of recipient reports
                  submitted by DHS contr!1.ctClt$ In Acquisition Ahart 09-14, Recovery Act ccntract Actions - Implementation
                  and Review of Contrctor Reports, .The origil'al Alert wai ii;si.ed Ol' September15, 2009.. The                          Alert was
                  subllequ~mtiy updatlid(Amendment 01) on October 7,2009t91ncol'rateaddillon!11 guidance resulting from
                  the Office cif Federal      Procurement Policy (OFPP) memorandUm diatedSeptemb-lr 30.                      2009, Interim Guidance
                  on Reviewlrg ContrctorRepOrfs on the Use Of                  Recovery ActFimds In ACCQrQsnce with              FAR Clause 52.204­
                  11. OCPO provIded a            copy of   the d.rafLAlert tathe OIG at the     September 11. 20.09, meetini;, Atlhemeetlng
                  with the IG on October  13, 2009, the OIG representatives indicated they h!1d seen both the fin!1l version of the
                  origin!1l Alert and Amendment 01. The Oep!1rtmentbelleves that the DHS OCPO procedure$ for data quality
                  reviews of contt!ctor recipient report meet. thli follClwlng !1ttb\ltes listed In AppendiX E of the draft report:

                           1, Acquisiton Alert 09-14 est!1blishes policies and procedures for reviewing quarterly reciplentreport

                              submitted by connctors consistent with OMB Memot!nda M-09-10, M.09.15, !1nd M.09-30; Federal
                              Acquisition RegulatiCln (FAR) 4.1501 !1nd 52.204-11; Federal RegIster notices Issued by           the Civilian
                              Agency Acquisition Councli on August          25, 2009 (74 FR 42877) al'd September 25, 2009 (74 FR
                              48971); ànd the OF?? memClt!ndumof September 30, 2009. As noted In foo.lnote 1 on pagli 3 of the
                              dt!ft report,OMB M-09-21 does          not !1pply to contmcts. The procures include:
                                   . Arequirement to specitcally notifylremlnd eachèontmctor ofitsreporLlng responsibilties and
                                        to provide certin d!1ta elements necessary         to Identify the connct consistent with data




  Process Used by the Department of          Homeland Security to Monitor Reporting by Recipients of
                              American Recovery and Reinvestment Act of 2009 Funds

                                                                           8
Appendix B
Management Comments to the Draft Report



                               entered        in the Federal Procurement Data System (FPDS). The Alert includes a detailed
                               sample.        leter   for ColitrctingOffcers to use.
                           · Direction to registerat FedetaIRepomng.gov,

                           . A requirement to complete designatèd OMBWebinar trining modules.

                           . Procedures for conflrmingthat award information is                    accurate and for identifying signifcant
                               errors ånd material omissions.
                           . Authority to delegate review responsibilities to the Contring Offcets Technical
                                 Representative (COTR), subjec              to th.e same trining requirements. The Alert includes            a
                               detl'iled sample delegation memorandum.
                           . Guidance on assigning review responsibilties under Interagency Agreements.

                           . Specifc tlmeframes for tie notification to contrctors and completion of trining, In                         addition to

                                 the government-wide tlmeframes established fotthe foral review procesS.


                2. Thetransmission oUhe Alert                 to Components on September 15,2009, included a list of the DHS
                    Recvery Act actions reported to the Federal Procurement Data System as of September 15, 2009.

                3. Consistent with FAR and OFPP requirements, the 	             Alert designates the Contracting Offcer as the
                    responsible reviewing offcial, withauthorily delegate to thèCOTR. As noted above, thE! Alert
                    provides detailed procedures and timefremes to promote contractor             compliance and effective data
                    quality revieWs.

                4. Section4.C(5) Of              the Alert provides policy and procedures for detecting material omissions and
                     significant reportng errrs. These are also incorporated Into tlsample delegation to the COrR.
                5. Consistent with FAR 4.1501(C) and (d) and OFPP's September 30,200S memorendl.m, 	                                   sectons
                    4.0(6) and (7) an(l4.D(4) of the Alert reinforc the Contrcting Offcets responsibility to apply
                    appropriate contractual remedies for noncompliance with reporting requirements. As note.din
                    OFPP's memorandum.     the specific remedies will be determlned case-by..se based onthesevetlty
                     of   the noncompliance.

                6. The review proedures and compliance with FAR 4.1501 wll assess                             compliance with award
                     agreement terms and conditions, both for cømpllance with submission requirements and for                             achieving
                     contractgoais (checking the contractor's report on project            progress forreasOn!!bleresS and

                     consistency with other            sources .of project progress iofrmaticm).


                7. The Alert dol'S not specifically address risk assessment. However, the quarterly r!!port WOl.ld b!!
                     One sourceofinformatlontogether with                  other   contrctor progress report and InfOrmaton obtained
                     during performance monitoring for program management to identif cost                             schedule, or performance
                     risks;

                8. With a few exceptions, DHS Recovery Act contracts                       are and will be fixed pric!!. For thes!!, payment Is
                     based on actual work performed and accepted - services Performed andlor supplies                               received. For
                     the few costlype contracts that DHS wil award. the quartrly recipient report should notb.ethe only
                     source of     informal       ion of project progress. The contractor wll be submittng invoices             once    a month or
                     more frequently as provided und!!r the contract The COTR should be receiVing more   frequent
                     report of progresEithrough formal report andlor periOdic monitoring (phone calls, emalls, etc.).
                     Relying on the quarterly reports WOUld not provide                 timely information f()r Invoice review and apProval,
                     The contractots quarterly reports wil be checked for                  accuracy against other more timely Information
                     that DHShas on contrctor performance.




  Process Used by the Department of Homeland Security to Monitor Reporting by Recipients of

                   American Recovery and Reinvestment Act of 2009 Funds


                                                                      9
Appendix B
Management Comments to the Draft Report


                  Later in that section, iatthe beginning of the discussion on DHS Components ltisstates thøt, "TSA,                   however;
                  has yet    to develop a methodology! The Department             believes that policies devE)lopedsubsequentto the initial
                  røview atTSAoffrs adlfførentpicturø. TSAwasthefirst component interviewed by thø DHS QIG, two days
                  following the /'ceîpt of DHS AcqUisition Alert 09-1400 September 15,2009, It is                  correct   that attlat point in
                  time. TSA bad not yet drafted a policy to Implement the reuirements.. However, prior to                    the deadllneforthe
                  submission ()fcontractor report on Ocober 10, '2009, TSA proided to the aCQuisition pers()nnelinvolved
                  with Recvery        Act implementation, a draf policy to provide guidance to ensure that all Reçovery Açtreporting
                                                                                                          Issuance of. DHS
                  requirements are properlY satisfied. Qn October 14, 2009, TSA finalized this policy following
                  Acquisition Alert 09-14 Amendment 1, which was. issued Qctober 7,2009. This TSA pOlicy wasprovidØd to
                  the DHS. QIG on Qctober19, 2009. Additionally, TSAcontracting and proram personnel røeived training
                  from    the DHS Offce of the Chief Procurement Qffcer(OCPO) po Qctober 9,2009. Thøreforø, the
                  Departent believes that the existønce and substantie content of this policy sl'OUld bø reflected .in the OIG's
                  finaireport Additionally, the information c()ntalned in AppendixE of the report should be updated to reflect
                  the    policy's comparison with the atlriliutes contained in that Appendix.




                   Oter comments:


                   In the summary of USCG and ICE Pl'dures refer to wøekly progress reviews ofl'cipientreportdata. It Is
                   notcleat whether this iapplles to a weekly rèvieWdUringthe formalsl.bmissionaod reviewpl'ocess each
                   quaier(Day1 throgll49 each Jam.lsry, April, July and October). Since report are .submitted only ona
                   quartrly basis snp cannot be revised until the nextleportlng cycle, thel' would seem to be no need fOra
                   review every week, DUring the review cycte, OCPOhas questioned whether weekly reviews are suff.cient In
                   practice there have been daiiy conferènces between the Components and the Departmental Coordination
                   offçe to track Progl'SS and solve problems. tn the sUmmary  of actions taken by FEMA, the report stiates that,
                   "FEMA wil conduct random samples of recipient recrds   for its ARRA grant pr09l's:Sloce tle IG'.s visit
                   with FEMA, that Component           has developed    an integratedtQol that they have used to accomPlIshEl100%
                   electonic revlewthathlglillghtunyreportngparameters needing indlvduallnterpretatioo or Intervention.



                                                   page 3 properly notes that OMB-09-21 doesnotapplyto contract~
                   l.n.Appendix 0: The footnote 1 on
                   However,l!t bot "Days 1-10" and Days 11-21,øAppendlx D refers to reviews by "contracting officials."
                   Appendix D should more clearly explain the           applicable guidance and should add references           to reviews by
                   grants offcials and those responsiblefør I'viewlng report under Other Transactions. Altrnatively, the
                   Appendix could delete refel'nces to "contracting offcials"           and use only a      generic reference to "the DHS
                   Componentø

                   Undel' .Pay 30," the report states that "(tlhEl DHSComponeliti$leauired to POsntie detailed prime recipient
                   I'ports on ww.Recovery.gov.d This Is not accuratø, FederaiReportinG.gov wil    automatically transfer the
                   I'port, forall recIpients andal.l agencies, to        Recovery.gov. Thøl'ls no action reqi.!Ired by any Federal
                   agency.

                   In Appendix E: The first attribute references M~09-21. It should also reference policy that applies to contracts,
                   Under the last attribute, the FEMA process notes that FEMA wil."use contrct terms to     address non­
                   compliance." OCPO believes the correct reference should be to. "grant terms" as FEMA has nb contrct
                   actions issued Under the Recovery Ac only Grants.

                   The Departent appreciatø$ the opportunity             to provide these views and looks forward to continue working
                   with the .IG Recovery Aet.eam to address rlsks,idElntlfy l!reas of        concern and address them cooperatively
                   and collaboratlvely.




  Process Used by the Department of        Homeland Security to Monitor Reporting by Recipients of
                            American Recovery and Reinvestment Act of 2009 Funds

                                                                        10
Appendix C
DHS Reported Status of Awards and Number of Award Recipients Registered in
www.FederalReporting.gov




   Recipient Data           FEMA        TSA          USCG    ICE      CBP        HQ            Total

Number of Awards as of
                              335         52          12      10        1          1           411
 September 30, 2009

 Number of Recipients
 Registered as October        318         51          10      10        1          1           391
         2009
 Number of Recipients
                               17         1           2       0         0          0            20
   not Registered

   Percentage of
                              94.9       98.1        83.3    100       100        100          95.1
Recipients Registered




 Process Used by the Department of Homeland Security to Monitor Reporting by Recipients of 

                   American Recovery and Reinvestment Act of 2009 Funds 


                                                11
Appendix D
Detailed Reporting Requirements

                      Under the Recovery Act and OMB M-09-21 entities that receive
                      recovery funds are defined as “recipients”. Section 1512 of the
                      Recovery Act states that a recipient “means any entity that receives
                      recovery funds directly from the Federal Government (including
                      recovery funds received through grant, loan, or contract) other than
                      an individual; and includes a State that receives recovery funds.”

                      OMB M-09-21 says that there are two primary reporting groups:
                      prime recipients and sub-recipients. “The prime recipients are non-
                      Federal entities that receive Recovery Act funding as Federal awards
                      in the form of grants, loans, or cooperative agreements directly from
                      the Federal government” and “a sub-recipient is a non-Federal entity
                      that expends Federal awards received from another entity to carry
                      out a Federal program but does not include an individual who is a
                      beneficiary of such a program.” Federal agencies are not considered
                      prime- or sub-recipients.

                      The data required for reporting consists of the following:

                      		 The total amount of recovery funds received, expended or
                          obligated to projects or activities;

                      		 A detailed list of all projects or activities for which recovery
                          funds were expended or obligated, including:

                          		 the name of the project or activity;
                          		 a description of the project or activity;
                          		 an evaluation of the completion status of the project or
                              activity;
                           an estimate of the number of jobs created and retained by
                              project or activity;
                           the purpose, total cost, and rationale of the agency for
                              funding infrastructure investments with recovery funds; and
                          		 a contact person.

                      		 Detailed information on any subcontracts or sub-grants awarded
                          by the recipient to include the data elements required to comply




 Process Used by the Department of Homeland Security to Monitor Reporting by Recipients of 

                   American Recovery and Reinvestment Act of 2009 Funds 


                                              12
Appendix D
Detailed Reporting Requirements

                                with the Federal Funding Accountability and Transparency Act
                                2006 4 , allowing aggregate reporting on awards below $25,000 or
                                to individuals, as prescribed by OMB.

                           Prime recipients will submit data via www.FederalReporting.gov on
                           a quarterly basis (no later than the 10th day following the end of the
                           quarter). The first reporting period will be October 10, 2009.
                           Reporting cannot be combined with existing federal reporting
                           requirements. Waivers will not be granted for any recipients
                           required to report. Non-compliance will be considered a violation,
                           and violators will be subject to the stipulations outlined in the award
                           terms and conditions.

                           In addition, the OMB guidance requires that the information
                           reported by recipients be made public via www.Recovery.gov no
                           later than the 30th day following the quarter end. The relationship
                           between FederalReporting.gov and Recovery.gov is depicted in
                           Figure 1.
                           Figure 1




4
  The Federal Funding Accountability and Transparency Act of 2006 (P.L. 109-202) requires OMB to ensure
the existence and operation of a single searchable website, accessible by the public at no cost to access, that
includes for each Federal award - (A) the name of the entity receiving the award; (B) the amount of the
award; (C) information on the award including transaction type, funding agency, the North American
Industry Classification System code or Catalog of Federal Domestic Assistance number (where applicable),
program source, and an award title descriptive of the purpose of each funding action; (D) the location of the
entity receiving the award and the primary location of performance under the award, including the city, State,
congressional district, and country; (E) a unique identifier of the entity receiving the award and of the parent
entity of the recipient, should the entity be owned by another entity; and (F) any other relevant information
specified by the OMB.



    Process Used by the Department of Homeland Security to Monitor Reporting by Recipients of 

                      American Recovery and Reinvestment Act of 2009 Funds 


                                                      13
Appendix D
Detailed Reporting Requirements

                          The key reporting activities performed are outlined below.

                          All reporting recipients and reviewing federal agencies must be
                          registered as authorized parties prior to submitting or reviewing
                          recipient reports on www.FederalReporting.gov.

                          Days 1 – 10: The reporting entities are storing the data to be
                          submitted and making the necessary changes prior to submission to
                          www.FederalReporting.gov. All reporting entities must submit data
                          by the 10th day and those who do not will be considered as non­
                          compliant.

                          Days 11 – 21: The prime recipients will review the data submitted
                          by the sub-recipients and notify them of any significant reporting
                          errors or material omissions. Also during this time, the department
                          components will review the reports submitted to identify any
                          significant errors or material omissions.

                          Days 22 – 29: The department component will perform a formal
                          data quality review of the reports submitted by the prime recipients.
                          The contracting officials may perform automated checks and
                          sampling methods to review data reported to identify any significant
                          reporting errors or material omissions. The department component
                          will classify submitted data as:

                          •		 Not Reviewed by agency
                          •		 Reviewed by agency, no material omissions or significant
                              reporting errors
                          •		 Reviewed by agency, material omissions or significant reporting
                              errors identified 5

                          Day 30: The department component shall make the detailed prime
                          recipient reports available on www.Recovery.gov so that the public
                          is made aware of how the recovery dollars are being allocated and
                          spent. Issues identified after the data has been posted will be
                          corrected in the following quarterly report.


5
 This classification will require the DHS to submit these findings to recoveryupdates@gsa.gov so the Board
can publicize this information on www.Recovery.gov.




    Process Used by the Department of Homeland Security to Monitor Reporting by Recipients of 

                      American Recovery and Reinvestment Act of 2009 Funds 


                                                    14
Appendix E
Comparison of Attributes in the Board’s Data Quality Review Guide with
Component Monitoring Processes


                                                                  DHS COMPONENT PROCESSES
           Attribute                 FEMA                      CBP           USCG                            ICE                 TSA
Do policies and procedures     Yes                     Yes               Yes            Yes                                 Process not yet
exist for reviewing                                                                                                         developed.
Quarterly Recipient
Reporting pursuant to OMB
M-09-21?
Does Plan for review           Yes                     Yes                     Yes                    Yes                   Process not yet
include a process for                                                                                                       developed.
identifying the recipient
reporting universe?
Does plan for review           Yes - Provides for      Yes - Provides for      Yes - Includes a       Yes - Provides for    Process not yet
describe how the component     reviews of key          contracting officials   checklist providing    a four-level review   developed.
will ensure that it conducts   reporting data and      to perform              for weekly             process.
required reviews of reported   random sampling of      necessary reviews       examinations and
data.?                         universe.                                       random sampling of
                                                                               reporting universe
Do policies and procedures     Yes- Provides for       Yes - Includes audit    Yes- Includes          Yes - Reviews will    Process not yet
exist to detect material       automated or            program to identify     regular reviews        be conducted,         developed.
omissions and significant      manual matching of      material omissions      including              errors/omissions
reporting errors?              data, as applicable,    and significant         reconciling invoices   will be acted on by
                               and weekly              reporting errors.       to reports and         contracting
                               meetings to discuss                             weekly discussions     officials, and
                               material omissions,                             with contracting       actions will be
                               significant errors                              officials to discuss   monitored by the
                               and validation of                               omissions/errors.      Office of the Chief
                               data submitted.                                                        Information
                                                                                                      Officer and Chief
                                                                                                      of Staff
Does process exist to          Yes- Provides for       Yes - Provides for      Yes - Provides for     Yes – Incorporates    Process not yet
remediate systemic or          contacting recipients   use of an audit         contacting             regular contracting   developed.
chronic reporting problems?    for corrections and     program to              recipients for         oversight to
                               enforcing contract      remediate reporting     corrections and        address contractor
                               terms to address        problems.               enforcing contract     performance and
                               non-compliance.                                 terms to address       reporting
                                                                               non-compliance.        problems.
Recipient-reported             Yes - Will assess       Yes - Will reconcile    Yes - Will provide     Yes - Will            Process not yet
information can be used to     compliance by           projected to            an information         compare data          developed
assess compliance award        using data reported     reported data; and      framework to assess    submitted by
agreement terms and            by recipients for an    will cross-check        compliance using       contractors with
conditions?                    information             prime and sub-          reported data.         expected project
                               framework and by        recipient data to                              baselines and
                               importing award         prevent duplicates.                            milestones, and
                               data into an                                                           follow- up as
                               Enterprise Data                                                        necessary.
                               Warehouse.
Recipient-reported             Yes- Will categorize    Yes- Developed a        Yes- Will              Yes- Will use         Process not yet
information can be used to     and review              risk and mitigation     categorize             substantiated data    developed
assess risk?                   submitted data to       template to identify    recipients using a     reported to further
                               identify awards/ and    potential risks and     risk approach and      assess current
                               reporting               mitigation efforts,     identify higher-risk   risks and identify
                               compliance risks.       and to assess           recipients.            new risks.
                                                       results.
Recipient-reported             Yes- Will work          Not Applicable ­        Not Applicable ­       Yes- Will measure     Process not yet
information can be used to     directly with           This does not apply     This does not apply    useful information    developed
determine when remaining       recipients for          to fixed-priced         to fixed-priced        against project
funds are released?            corrections and use     contracts used by       contracts used by      deliverables and
                               grant terms to          this component          this component         expenditure plans
                               address non­                                                           to assess remedial
                               compliance.                                                            actions.



   Process Used by the Department of Homeland Security to Monitor Reporting by Recipients of 

                     American Recovery and Reinvestment Act of 2009 Funds 


                                                                  15 

Appendix F
Major Contributors to This Report


                      Roger LaRouche, Director
                      William Gillies, Audit Manager
                      Stephen Doran, Auditor
                      Kendra Morgan, Auditor
                      Pamela Weatherly, Program Analyst
                      James Bess, Referencer




 Process Used by the Department of Homeland Security to Monitor Reporting by Recipients of 

                   American Recovery and Reinvestment Act of 2009 Funds 


                                              16 

Appendix G
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Management
                      DHS Acting Chief Procurement Officer
                      Director, Office of Procurement Operations
                      DHS Component Liaison, FEMA
                      DHS Component Liaison, CBP
                      DHS Component Liaison, TSA
                      DHS Component Liaison, USCG
                      DHS Component Liaison, ICE

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




 Process Used by the Department of Homeland Security to Monitor Reporting by Recipients of 

                   American Recovery and Reinvestment Act of 2009 Funds

                                              17
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
